No.
IN THE

Supreme Court of the United States

DANOS KALLAS,
Petitioner
v.
THERESA L. EGAN
as the Executive Deputy Commissioner of the
Department of Motor Vehicles of the State of New
York,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals For The
Second Circuit

APPENDIX OF DANOS KALLAS
Danos Kallas,
Petitioner, pro se
200 Winston Drive #415
Cliffside Park, N.J.07010
(201) 725-5149
-1-

TABLE OF CONTENTS
Page(s)
Summary Order of the United States Court
of Appeals for the Second Circuit...................

. 4

316

Memorandum, Opinion and Order of the
Federal District Court for the Southern
District of New York....................................

17-29

Report and Recommendation of the
Magistrate Judge of the Federal District
Court for the Southern District of New
York................................................................

30-43

Order To Show Cause of the
Magistrate Judge Order of the
Federal District Court for the Southern
District of New York.................................

44-51

Order of the United States Court of
Appeals for the Second Circuit (Petition for
Rehearing Denied)............................................ 52-53
Constitutional Provisions, Treaties,
Statutes, Rules and Regulations
Involved.................................................

-2-

54-57

20-717
Kallas v. Egan

UNITED STATES COURT OF
APPEALS FOR THE SECOND
CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT.
CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”). A
PARTY CITING TO A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States
Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of
New York, on the 22nd day of January, two
thousand twenty-one.
PRESENT:
ROBERT A. KATZMANN,
-3-

MICHAEL H. PARK,
STEVEN J. MENASHI,
Circuit Judges.

DANOS KALLAS
Plain tiff-Appellan t,
20-717

v.

THERESA L. EGAN, as the Executive
Deputy Commissioner of the
Department of Motor Vehicles of the
State of New York,
. Mr:

Defen dant ■Appellee.

For Plaintiff-Appellant:

DANOS KALLAS, pro se,
Cliffside Park,NJ.

For Defendant-Appellee:

MATTHEW W. GRIECO,
Assistant Solicitor
General (Barbara D.
Underwood, Solicitor
General, Steven C. Wu,
Deputy Solicitor General,
-4-

Erik Fredericksen,Law
Intern, on the brief), for
Letitia James, Attorney
General, State of New
York, New York, NY.

Appeal from an order of the United States
District Court for the Southern District of New
York (Caproni, J.\ Aaron, M.J).

UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is
AFFIRMED.

Plaintiff-appellant,

Danos

Kallas,

proceeding pro se, brought the instant 42
U.S.C. § 1983 action against defendantappellee Theresa L. Egan, Executive Deputy
Commissioner of the New York State
Department of Motor Vehicles, alleging that
unspecified vehicle and traffic law statutes
-5-

violated the equal protection and due
process rights of Americans. Kallas alleged
that the statutes were unconstitutional
because they did not incorporate a slidingscale schedule for traffic fines, which
disproportionately burdened minorities and
which, in turn, contributed to nationwide
civil

Also,

unrest.

Kallas

sought

a

declaratory judgment imposing nationwide
legislative reform, such as less severe
punishment for traffic infractions.

The

magistrate judge recommended dismissal of
the complaint on standing and res judicata
grounds, without leave to amend.
district court

adopted the

recommendation

and

The

report and

dismissed

complaint, and this appeal followed.

the
We

assume the parties’ familiarity with the
-6-

underlying facts, the procedural history of
the case, and the issues on appeal.

We

review

the

district

court’s

determination on standing de novo.

See

Rajamin v. Deutsche Bank Nat’l Tr. Co., 757
F.3d 79, 84-8 5 (2d Cir. 2014). To establish
Article III standing, “the plaintiff must have
(l) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the
defendant, and (3) that is likely to be
redressed by a favorable judicial decision.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016).1

“To establish injury in fact, a

1 Unless otherwise indicated, case
quotations omit all internal quotation
marks, alterations, footnotes, and citations.
2
-7 -

plaintiff must show that he or she suffered
an invasion of a legally protected interest
that is concrete and particularized and
actual or imminent, not conjectural or
hypothetical.” Id. at 1548. And “when the
asserted harm is a generalized grievance
shared in substantially equal measure by all
or a large class of citizens, that harm alone
normally does not warrant exercise of
jurisdiction.” Warth v. Seldin, 422 U.S. 490,
499 (1975); see also Daimler Chrysler Corp.
v. Cuno, 547 U.S. 332, 344 (2006) (holding
that an injury a plaintiff “suffers in some
indefinite way in common with people
generally” is not a cognizable injuryin-fact).
Even if a plaintiff has alleged an injury that
satisfies

the

Article

III

standing

requirements, he “generally must assert his
-8-

own legal rights and interests, and cannot
rest his claim to relief on the legal rights or
interests of third parties.” Warth, 422 U.S.
at 499.
Kallas argues that he had standing to
bring his claims because “the right to sue
governmental entities” constitutes a case or
controversy. Appellant’s Br. 12. However,
nowhere in his complaint or various filings
has he alleged any facts showing that he
himself suffered any injury-in-fact from any
vehicle or traffic statutes, and he did not
allege that Egan’s conduct caused him any
harm such that he had a personal stake

-9-

in the litigation. See Spokeo, 136 S. Ct. at
1547-48.

Even if we were to liberally

construe Kallas’s brief to argue that he
suffered an injuryin-fact in the form of civil
unrest, this is a generalized grievance that
Kallas claims is shared by the American
people. Accordingly, it does not constitute
an injuryin-fact.

See id. at 1548; Warth,

422 U.S. at 499.

Further, Kallas cannot

bring suit on behalf of the “American
people,” as he cannot establish standing by
asserting the legal rights of third parties.
See Warth, 422 U.S. at 499; Rajamin, 757
F.3d at 86. Because Kallas has not met the
injuryin-fact

requirement,

he

cannot

establish standing. See Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561 (1992)

-10-

3

(explaining that the three elements of
standing are “an indispensable part” of a
case and that a plaintiff must meet each of
them).

Even if Kallas had alleged an injuryin-fact, he did not satisfy the redressability
element of the standing requirements. To
satisfy this element, a plaintiff must show
that it is “likely, as opposed to merely
speculative, that the injury will be redressed
by a favorable decision.”

Id.

Kallas

generally alleged that unspecified statutes
violated Americans’ equal protection and
due

process

rights,

contributing

to

widespread civil unrest that harmed the
-11-

American people. He requested relief in the
form of a declaratory judgment that would
instruct Congress and state legislatures to
implement legislative reforms.

However,

federal courts may not require Congress and
state

legislatures

to

exercise

their

legislative powers. See Liu v. United States
Cong., No. 193054, 2020 WL 6306971, at *4
(2d Cir. Oct. 28, 2020) (summary order)
(“[Flederal courts lack the power to compel
the Congress to exercise its legislative
powers.

The Constitution commits the

federal legislative power to the Congress.”);
SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348,
1358 (2018) (“It is Congress’s job to enact
policy and it is this Court’s job to follow the
policy Congress has prescribed.”); U.S.
Const, art. I, § 8 (delegating enumerated
-12-

legislative functions to Congress, not the
federal courts); id.. amend. X (reserving
unenumerated powers to the States).
Kallas

also

argues that he has

standing because the Second Amendment
grants citizens the right to “defend their
homeland”

through

Appellant’s Br.

civil

13-14,

litigation,

and because it

exempts citizens proceeding pro se from
Article III standing requirements. We are
not persuaded,

as

all plaintiffs

must

demonstrate standing even when bringing
suit under the Second Amendment.

See

Libertarian Party ofErie County v. Cuomo,
970 F.3d

106,

121-22 (2d Cir.

2020)

(requiring plaintiffs to establish standing
with respect to their Second Amendment
claims challenging the constitutionality of
-13-

firearm licensing statutes); see also U.S.
Const, art. Ill, § 2,
4
cl. 1 (establishing judicial power over cases
and controversies). In addition, the district
court properly declined to consider the
merits of his claims, given that the threshold
jurisdictional requirement of standing was
not met.

See Whitmore v. Arkansas, 495

U.S. 149, 154 (1990) (“[Blefore a federal
court can consider the merits of a legal
claim, the person seeking to invoke the
jurisdiction of the court must establish the
requisite standing to sue.”).
Finally, Kallas’s appellate brief does
not address the district court’s holding that
amendment would be futile.

He has

therefore waived any challenge to the
- 14-

district court’s ruling on that issue.

See

LoSacco v. City of Middletown, 71 F.3d 88,
93

(2d

Cir.

1995)

(“[W]e

need

not

manufacture claims of error for an appellant
proceeding pro se, especially when he has
raised an issue below and elected not to
pursue it on appeal.”). In any event, without
standing, amendment would be futile as the
barriers to relief for Kallas’s claims cannot
be surmounted by reframing the complaint.
See Cuoco v. Moritsugu, 222 F.3d 99,112 (2d
Cir. 2000).
We have considered all of Kallas’s
remaining arguments and have found in
them no grounds for reversal. Accordingly,
we AFFIRM the order of the district court.

-15-

FOR THE COURT: Catherine O’Hagan
Wolfe, Clerk of Court

5

-16-

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
X

DANOS KALLAS,
Plaintiff,
-against18-cvl2310(VEC)
MEMORANDUM
OPINION AND
ORDER
THERESA L.
EGAN, as the
Executive
Deputy
Commissioner of
the Department
ofMotor
Vehicles of the
State ofNew
York '■

Defendants. :
X

VALERIE CAPRONI, United States District Judge:
Pro se plaintiff Danos Kallas alleges that New
York’s traffic statutes violate Equal Protection and
-17-

Due Process because state law does not allow
minorities, “who . . . [are] less able to pay fines,” to
receive lower fines. See Compl. (Dkt. l) at 2. Kallas
does not claim to be a member of the minority
group(s) on whose behalf he purports to bring this
action—indeed, he specifically disclaims any relief for
himself, and instead claims to have “citizen standing”
to correct a perceived injustice. See Compl. (Dkt. l)
at 4 (“The citizen is proceeding gratis, without regard
for his/her self-interests.”). Kallas has also
previously commenced a separate action against the
New York Department of Motor Vehicles, alleging
that the issuance of two traffic tickets by the State of
New York violated his constitutional rights; the
earlier action was dismissed sua sponte as frivolous
by the district court, and the dismissal was affirmed

-18-

by the Second Circuit, without leave to amend.
Kallas v. Fiala, 591 F. App’x 30, 31 (2d Cir. 2015)
(“We further note that amendment of the complaint
would have been futile.”), cert, denied, 136 S. Ct. 271
(2015). Magistrate Judge Stewart Aaron, to whom
this action was referred for general pretrial and
other issues, ordered Plaintiff to show cause why this
action should not be dismissed for lack of standing or
as barred by claim preclusion. See Dkt. 6. After
reviewing Plaintiffs response, Judge Aaron
recommended that this Court dismiss the action and
deny leave to amend as futile. See Report &
Recommendation (“R&R”) (Dkt. 10) at 6-8. Although
Kallas has filed timely objections, his arguments are
meritless, and the Court adopts Judge Aaron’s
recommendation that the claims be dismissed for
lack of standing, and that leave to amend be denied
as futile.
-19-

DISCUSSION
Because Kallas is proceeding pro se, the Court
construes his submissions “liberally” and interpret
them “to raise the strongest arguments that they
suggest.” Triestman v. Fed. Bureau ofPrisons, 470
F.3d 471, 472 (2d Cir. 2006).
In reviewing a Report and Recommendation
(R&R), a district court “may accept, reject, or modify
in whole or in part, the findings or recommendations
made by the magistrate judge.” 28 U.S.C. §636(b)(l).
The standard of review employed by the district court
in reviewing an R&R depends on whether any party
makes timely and specific objections to the report.
Williams v. Phillips, No. 03-CV-3319, 2007 WL
2710416, at *1 (S.D.N.Y. Sept. 17, 2007). To accept
those portions of the R&R to which no timely
objection has been made, “a district court need only
satisfy itself that there is no clear error on the face of
-20-

the record.” King v. Greiner, No. 02-CV-5810, 2009
WL 2001439, at *4 (S.D.N.Y. July 8, 2009) (quoting
Wilds v. United Parcel Service, Inc., 262 F. Supp. 2d
163, 169 (S.D.N.Y. 2003)). The Court also reviews
objections that are “conclusory or general” for clear
error. See Pineda v. Masonry Const., Inc., 831 F.
Supp. 2d 666, 671 (S.D.N.Y. 2011). Where, however,
specific objections to the R&R have been made, “[t]he
district judge must determine de novo any part of the
magistrate judge’s disposition that has been properly
objected to.” Fed. R. Civ. P. 72(b)(3); see United
States v. Male Juvenile (952
CR-1074), 121 F.3d 34, 38-39 (2d Cir. 1997). The
Court need not consider arguments and factual
assertions that were not raised initially before the
magistrate judge. Robinson v. Keane, No. 92-CV6090, 1999 WL 459811 at *4 (S.D.N.Y. June 29,
-21-

. 1999) (“These issues were not raised before the
Magistrate Judge and therefore were not addressed
by him; accordingly, they may not properly be
deemed ‘objections’ to any finding or recommendation
made in the Report and Recommendation.”); see also
Abu-Nassar v. Elders Futures, Inc., No. 88-CIV7906, 1994 WL 445638 at *4 n.2 (S.D.N.Y. Aug. 17
1994) (“If the Court were to consider [new arguments
m an objection], it would unduly undermine the
authority of the Magistrate Judge by allowing
litigants the option of waiting until a report is issued
to advance additional arguments.”).
The fact that Plaintiff lacks standing in this
matter is one of the few things that appears clearly
on the face of the Complaint. There is no question
that a plaintiff must assert “a distinct and palpable
injury to [himjself’ in order to have standing to
maintain a claim. Mahon v. Ticor Title Ins. Co., 683
-22-

F.3d 59, 64 (2d Cir. 2012) (quotation marks and
citation omitted). Instead, Plaintiff forthrightly
states that he is “proceeding D without regard for
his/her self-interests,” “seeks no individual relief,”
and is instead a “citizen-litigant” acting on behalf of
the American people. See, e.g., Compl. (Dkt. l) at 4.
Thus, although he claims that New York law inflicts
harm on minorities, he does not allege that he was
injured in any way. In his objection to the R&R,
Plaintiff claims in sweeping terms that he derives
standing from the Second Amendment of the United
States Constitution because the amendment
authorizes citizens to defend their homeland. See
Dkt. 11 at 2. Plaintiff cites no authority, and the
Court is unaware of any credible source that comes
close to suggesting that the Second Amendment
creates an exemption to the case or controversy
requirement contained in Article III of the
-23-

Constitution. See United States v. Jimenez, 895 F.3d
228, 232 (2d Cir. 2018) (“[A] defendant to whom a
statute
3

constitutionally applies has no standing to challenge
the statute’s constitutionality [under the Second
Amendment] as it applies to others differently
situated.”). Plaintiffs objection is therefore frivolous,
and the Court agrees with Judge Aaron that Plaintiff
lacks standing to seek relief purely on others’ behalf.1
Leave to amend should be granted to a pro se
litigant, unless it is clear that no valid claim can be
stated.2 See Grullon v. City ofNew Haven, 720 F.3d
133, 139 (2d Cir. 2013) (“A pro se complaint should
not be dismissed without the Court’s granting leave
to amend at least once when a liberal reading of the

-24-

complaint gives any indication that a valid claim
might be stated.” (quotation marks and citations
omitted)). Here, granting leave to amend would be
futile due to a combination of standing and claim
preclusion. First, unless Plaintiff abandons his
allegations that he is not seeking relief on his own
behalf and contradicts his current pleading that he
does not stand to benefit from invalidating New
York’s traffic laws, he cannot demonstrate standing.
If, however, Plaintiff attempts to challenge the
constitutionality of his own traffic tickets, which he
has already done, those claims would be barred by
res judicata because they could have been raised in
his previous litigation. See TechnoMarine SA v.
Giftports, Inc., 758 F.3d 493, 499 (2d Cir. 2014) (“To
prove the affirmative defense of res judicata a party
must show that (l) the previous action involved an
adjudication on the merits; (2) the previous action
-25-

involved the plaintiffs or those in privity with them,'
and (3) the claims asserted in the subsequent action
were, or could have been, raised in the prior action.”
(quotation marks and citation omitted)), might be
stated.” (quotation marks and citations omitted)).
Here, granting leave to amend would be futile due to
a combination of standing and claim preclusion.
First, unless Plaintiff abandons his allegations that
he is not seeking relief on his own behalf and
contradicts his current pleading that he does not
stand to benefit from invalidating New York’s traffic
laws, he cannot demonstrate standing. If, however,
Plaintiff attempts to challenge the constitutionality
of his own traffic tickets, which he has already done,
those claims would be barred by res judicata because
they could have been raised in his previous litigation.
See TechnoMarine SA v. Giftports, Inc., 758 F.3d
493, 499 (2d Cir. 2014) (“To prove the affirmative
-26-

defense of res judicata a party must show that (l) the
previous action involved an adjudication on the
merits; (2) the previous action involved the plaintiffs
or those in privity with them! and (3) the claims
asserted in the subsequent action were, or could have
been, raised in the prior action.” (quotation marks
and citation omitted)).

1

Plaintiff objects to Judge Aaron’s conclusion that the

complaint would also fail to state an equal protection claim
on the merits under Washington v. Davis, 426 U.S. 229
(1976). See Dkt. 11 at 4; R&R at 6 n.6. Because this case
fails for jurisdictional reasons, the Court does not address
the merits of Plaintiffs constitutional claims.
2

Plaintiff also objects to Judge Aaron’s citation to two

cases, which set forth general principles regarding the

grant or denial of leave to amend. See Dkt. 11 at 4-5. The

Court finds no error. See R&R at 7 (“Lastly, district courts
- 27 -

generally grant a pro se plaintiff an opportunity to amend

a complaint to cure its defects, unless it would be futile to

do so.” (citing Hill v. Curcione, 657 F.3d 116, 123—24 (2d

Cir. 2011) and Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d

Cir. 1988))).

4

CONCLUSION
Because Kallas’ objections are meritless and
the Court otherwise finds no clear error, the Court
ADOPTS the R&R’s conclusion that Plaintiff lacks
standing to maintain this action and that further
amendments would be futile. This action is therefore
dismissed without prejudice, and leave to amend is
denied.
The Clerk of Court is respectfully directed to
terminate all pending motions and deadlines and
-28-

close the case. The Clerk is further requested to mail
a copy of this Order to Mr. Kallas’ last known
address and note mailing on the docket.

SO ORDERED.

Date- January 30, 2020
VALERIE CAPRONI
New York, NY
United States District Judge

5

-29-

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

Kallas,
Plaintiff,
■against*
Egan,

I:i8,cv;i2310 (VEC) (SDA)
REPORTAND
RECOMMENDATION

Defendant.

STEWART D. AARON, UNITED STATES
MAGISTRATE JUDGE:
TO THE HONORABLE VALERIE E. CAPRONI,
UNITED STATES DISTRICT JUDGE:

-30-

On December 28, 2018, pro se Plaintiff Danos
Kallas (“Plaintiff’ or “Kallas”) commenced this action
by filing a Complaint, pursuant to 42 U.S.C. § 1983,
alleging constitutional violations under the Fifth and
Fourteenth amendments. (Compl., ECF No. 1.) On
January 17, 2019, I ordered Plaintiff to show cause
why his Complaint should not be dismissed. (ECF
No. 6.) For the reasons set forth below, I recommend
that this case be DISMISSED.
BACKGROUND
I.

Prior Lawsuit

Plaintiff brought a prior lawsuit in this Court
against the Commissioner of the Department of
Motor Vehicles (“DMV”), Kallas v. Fiala, No. 13-CV8816 (GBD) (S.D.N.Y.) (the “Prior Lawsuit”). In that
lawsuit, he alleged constitutional violations pursuant
to 42 U.S.C. § 1983. {See Compl., ECF No. 1, Kallas
v. Fiala, No. 13UCVU8816 (S.D.N.Y.) at 5.) The
purported factual basis for his claims arose out of
prior traffic violations. On February 6, 2011, police
officers had issued upon him two summonses in
Manhattan for traffic violations,1 which “gave rise to
several legitimate fundamental national security
issues.” {See Compl., Kallas v. Fiala, No.
13UCVU8816 (S.D.N.Y.) at 5U6.) He was found
guilty of the violations. {Id. at 6.) Plaintiff appealed
to the DMV Appeals Board, and his appeal was
denied. {Id) He brought an Article 78 proceeding in
New York State Supreme Court,2 in which he argued
that the state courts unconstitutionally denied him
-31-

•

discovery regarding national security issues that
were implicated because the traffic stop occurred
near “potential terrorist targets.” (Id. at 12.) That
proceeding was dismissed. (Id. at 6-7.) His appeal to
the Appellate Division was unsuccessful, and the
New York State Court of Appeals denied leave to
appeal. (Id.)
In the Prior Lawsuit, Plaintiff sought the
dismissal in this Court of the judgment and order of
the New York Court of Appeals, and sought to
proceed with the “resolution of the relevant
legitimate fundamental national security issues in
the litigation.” (Id. at 8.) District Judge Daniels
dismissed the case sua sponte as frivolous (Orders of
Dismissal, ECF Nos. 3 and 5, Kallas v. Fiala, Case
No. 13-CV-8816 (S.D.N.Y.)), and the Second Circuit
affirmed. See Kallas v. Fiala, No. 14-310 (2d Cir. Jan.
30, 2015).
II.

Present Lawsuit

On December 28, 2018, Plaintiff commenced
the present lawsuit. In this lawsuit, he brings claims
against the current Executive Deputy Commissioner
of the New York State DMV, again

-32-

1 One summons was for disobeying a traffic device and
one was for driving without a seatbelt, as detailed in
the State’s Memorandum of Law from Plaintiff s Article
78 proceeding in New York state court (discussed infra),
which is annexed to the complaint in the prior lawsuit.
(See Compl., ECF No.l, Kallas v. Fiala, Case No. 13-CV8816 (S.D.N.Y.) at 10.)
2 See Kallas v. Fiala, Index No. 102481/2012 (N.Y. Sup.
Ct.).

-33-

2

alleging violations of his constitutional rights under
42 U.S.C. § 1983. He states that he “brings the new
argument that the [traffic] statutes are also
Unconstitutional under Equal Protection and Due
Process because they do not integrate [a] progressive
(sliding scale) fine schedule, thereby having the effect
of disproportionally burdening minorities.” (Compl.
at 2.) He makes various proposals about allowing
traffic school education options to resolve
summonses. {Id. at 6.) Although the present lawsuit
appears to be based upon the prior traffic violations,
Plaintiff makes no reference to any facts underlying
those violations. Rather, many of Plaintiffs
arguments brought in the Complaint appear to be
proposals for legislative action and do not raise
justiciable legal claims.

-34-

III.

Order To Show Cause

On January 17, 2019, by Order to Show Cause, I
directed Plaintiff to file a declaration setting forth
why I should not recommend to the District Judge
that this case be dismissed for lack of standing, as
frivolous and as barred by the doctrine of res
judicata. (ECF No. 6.)
On February 14, 2019, Kallas filed a Declaration
in response to the Order to Show Cause. (Decl., ECF
No. 7.) Although his Declaration is somewhat
difficult to follow, in response to the Court’s inquiry
regarding standing, he seems to assert that he has
“citizen standing” to bring the complaint. {Id. at 1.)
In response to the Court’s inquiry regarding whether
the present lawsuit is frivolous, he seems to assert
that “frivolity” is not an “addressable issue” for this
Court. {Id) And, in response to the Court’s inquiry
regarding res judicata, although he concedes that he
brought the prior lawsuit {id), he seems to argue
that the issues raised in the prior lawsuit were not
subject to full and fair litigation. {Id. at 6.)
3
In the Declaration, Plaintiff does not offer
specific or particular facts about his claims, but relies
on general assertions. He states that this case is
“nationwide in nature” and that he had a “wide range
of potential defendants and courts.”3 (Decl. at 1U2.)
He states that this lawsuit “should be a concerted

-35-

effort that, after full and fair litigation, should result
in a win for the American people.” {Id. at 1.) He
makes generalized statements about the police.4 He
states that “the instant case is solely about the
defense of a public interest” {id. at 3) and that
“Plaintiff is proceeding gratis as a bare-bones United
States citizen under the 2nd Amendment5 with no
private (or individual) interest in the outcome of the
litigation seeking solely the gratification of watching
the American people win . . . {Id. at 4.) In order “to
seal” his argument that “there is nothing in it” for
Plaintiff, he “specifically and expressly excludes
himself from the relief of the class (the American
people) and waives any and all rights to even
coincidently [sic] benefit from the people’s relief
{Id. at 5.) Further to this point, Kallas states “[t]o
Plaintiff, the only thing that matters is that the
American people win.” {Id. at 7.) Towards the end of
his Declaration, Plaintiff states, “[i]n the instant
case, Plaintiff is seeking the uniform and harmonious
nationwide

3

He goes on to state, “Plaintiff chose based on what was
most fitting under the facts and circumstances of the
prior case.” (Decl. at 1-2.)

4

See, e.g., Decl. at 2 (emphasizing “unnecessarily negative
police community relations (and consequent, citizen

-36-

relations) nationwide”), 9 (“The public’s perception of the
police is a key point in this litigation.. .. Police should be
given an environment that not only protects the citizenry
but the police themselves, as well.”).
Kallas mentions a number of times in his Declaration,
for the first time in this action (i.e., he did not mention it
in his Complaint), the Second Amendment. (.See Decl. at 1,
2, 4 and 6.) Similarly, he mentions, for the first time in
this action in his Declaration, declaratory relief. (See
Decl. at 1

C‘[T]he statement that Plaintiff was seeking a

declaratory judgment under the U.S. Constitution meant
that Plaintiff was seeking declaratory relief under the 2nd
Amendment (and common sense) for the American
people.”).)

4
modification of the civil (and low threshold
victimless’ misdemeanor) laws and other uniform
and harmonious nationwide change.” (Id. at 7.)
LEGAL STANDARDS
The Court has the authority to dismiss a
complaint sua sponte, even when the plaintiff has
paid the filing fee, if it determines that the action is
-37-

frivolous. Fitzgerald v. First E. Seventh Tenants
Corp., 221 F.3d 362, 363-64 (2d Cir. 2000) (per
curiam) (internal citation omitted). A claim is
“frivolous when either: (l) the factual contentions are
clearly baseless, such as when allegations are the
product of delusion or fantasy; or (2) the claim is
based on an indisputably meritless legal theory.”
Livingston v. Adirondack Beverage Co., 141 F.3d 434,
437 (2d Cir. 1998) (internal quotations marks and
citation omitted).
Moreover, a court may raise sua sponte the
issue of standing at any point in a litigation. See
Keepers, Inc. v. City ofMilford, 807 F.3d 24, 38 (2d
Cir. 2015) (citing Cent. States Se. & Sw. Areas
Health & Welfare Fund v. MerckMedco Managed
Care, L.L.C., 433 F.3d 181, 198 (2d Cir. 2005)). To
have standing to maintain a lawsuit, a plaintiff
“must have (l) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). “[Alt the pleading stage,
the plaintiff must ‘clearly . . . allege facts
demonstrating’ each element.” Id. (citing Warth v.
Seldin, 422 U.S. 490, 518 (1975)).
A court also may raise sua sponte the issue of res
judicata. Scherer v. Equitable Life Assurance Soc’y of
U.S., 347 F.3d 394, 398 & n.4 (2d Cir. 2003). Under
the doctrine of res judicata, “a final judgment on the
merits of an action precludes the parties or their
privies from relitigating issues that were or could
-38-

have been raised in that action.” Proctor v.
LeClaire,lb F.3d 402, 411
5
(2d Cir. 2013) (internal quotation marks omitted). “A
party cannot avoid the preclusive effect of res
judicata ‘by asserting a new theory or a different
remedy.”’ Brown Media Corp. v. K&L Gates, LLP,
854 F.3d 150, 157 (2d Cir. 2017) (quoting SureHSnap
Corp. v. State St. Bank and Tr. Col., 948 F.2d 869,
875 (2d Cir. 1991)).
The Court is obliged to construe pro se
pleadings liberally, Harris v. Mills, 572 F.3d 66, 72
(2d Cir. 2009), and interpret them to raise the
“strongest [claims] that they suggest.” Triestman v.
Fed. Bureau ofPrisons, 470 F.3d 471, 474 (2d Cir.
2006) (internal quotation marks and citations
omitted).
DISCUSSION
I recommend that this action be dismissed.
Neither the Complaint nor the Declaration contain
any facts, general or particular, which show that
Kallas suffered any injury which is redressable by a
favorable judicial decision of this matter.6 Kallas
himself emphasizes that he would not personally
benefit from a favorable judicial decision in this
matter, stating he has “no private (or individual)
interest in the outcome of the litigation” (Decl. at 4)
and that he “specifically and expressly excludes
himself from the relief of the class (the American
people) and waives any and all rights to even
-39-

coincidently [sic] benefit from the people’s relieft.] (Id.
at 5.)

6

To the extent he makes any factual contentions,
he does not provide a basis for them. Thus, the
action is frivolous. See Livingston, 141 F.3d at
437. In my Order to Show Cause, I stated that
Plaintiff’s “claim that imposing fines without
regard to income disproportionately affects
minorities appears to he based on an
indisputably meritless legal theory.” (Order to
Show Cause at 4) (citing Washington v. Davis,
426 U.S. 229 (1976) (rejecting argument that
facially neutral state action violates Equal
Protection solely because it has a racially
disproportionate impact)). Plaintiff discusses
Washington in his Declaration, stating that “the
only notable effect Washington ... caused for the
American people with its’ [sic] essentially ‘tough
luck’ statement to minorities was to add more
steam to the civil unrest lobster pot” (Deck at 6)
and that “the federal courts should have the
-40-

opportunity to revisit Washington," which he
characterizes as being erroneously decided.
(See id. at 7.) The Court is not persuaded that
these legal arguments have merit.

6
'

Further, the relief which Kallas seeks —
“uniform and harmonious nationwide modification of
... laws” {id. at 7) — appears to be legislative in
nature and not addressable by judicial action.
To the extent Plaintiff argues that the Prior
Lawsuit was not subject to a full and fair litigation
and thus this action is not barred by res judicata,
Kallas is wrong. Judge Daniels’s sua sponte
dismissal of the Prior Lawsuit qualifies as a final
judgment on the merits for the purposes of res
judicata. See Soling v. New York State, 804 F. Supp.
532, 534 (S.D.N.Y. 1992). “[T]he res judicata effect of
such a sua sponte dismissal should apply as strictly
to pro se as to other plaintiffsU” Id. Kallas does not
show cause in his Declaration why the principles of
res judicata do not apply to this action.
To the extent Plaintiff mentions the Second
Amendment, there does not appear to be any factual
basis to allege a violation of his Second Amendment
rights. To the extent he seeks a declaratory judgment
or declaratory relief “for the American people” (Decl.
-41 -

at l), there exists in this action no controversy which
gives rise to such relief.
Lastly, district courts generally grant a pro se
plaintiff an opportunity to amend a complaint to cure
its defects, unless it would be futile to do so. See Hill
v. Curcione, 657 F.3d 116, 123'24 (2d Cir. 2011);
Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir. 1988).
By Order dated January 17, 2019, the Court directed
Plaintiff to show cause why the Complaint should not
be dismissed, and in response, he failed to articulate
any valid reason why it should not be dismissed. It
therefore appears that it would be futile to grant
Plaintiff leave to amend, and the Court declines to
recommend that the District Court grant Plaintiff
leave to amend his Complaint.
7
CONCLUSION
For the reasons stated above, I recommend
that District Judge Caproni dismiss this action. The
Clerk of Court is directed to mail a copy of this Order
to the pro se Plaintiff, Danos Kallas, at the address
provided for him on the docket, and to note service on
the docket.
SO ORDERED.
DATED:

New York, New York
March 1, 2019

-42 -

t" d.
STEWART D. AARON
United States Magistrate Judge

NOTICE OF PROCEDURE FOR FILING
OBJECTIONS TO THIS REPORT AND
RECOMMENDATION
The parties shall have fourteen (14) days
(including weekends and holidays) from service of
this Report and Recommendation to file written
objections pursuant to 28 U.S.C. § 636(b)(1) and Rule
72(b) of the Federal Rules of Civil Procedure. See also
Fed. R. Civ. P. 6(a), (d) (adding three additional days
when service is made under Fed. R. Civ. P. 5(b)(2)(C),
(D) or (F)). A party may respond to another party’s
objections within fourteen days after being served
with a copy. Fed. R. Civ. P. 72(b)(2). Such objections,
and any response to objections, shall be filed with the
Clerk of the Court. See 28 U.S.C. § 636(b)(1); Fed. R.
Civ. P. 6(a), 6(d), 72(b). Any requests for an extension
of time for filing objections must be addressed to
Judge Caproni.
THE FAILURE TO OBJECT WITHIN
FOURTEEN (14) DAYS WILL RESULT IN A
WAIVER OF OBJECTIONS AND WILL PRECLUDE
APPELLATE REVIEW. See 28 U.S.C. § 636(b)(1);
Fed. R. Civ. P. 6(a), 6(d), 72(b); Thomas v. Am, 474
U.S. 140 (1985).
8
-43-

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Kallas,
Plaintiff,
-against-

l:i8-cv-12310 (VEC) (SDA)
ORDER TO SHOW CAUSE

Egan,
Defendant.

STEWART D. AARON, United States
Magistrate Judge:
Pro se Plaintiff Danos Kallas (“Plaintiff’ or
“Kallas”) brings this action pursuant to 42 U.S.C. §
1983, alleging constitutional violations under the
Fifth and Fourteenth amendments.
For the reasons set forth below, Plaintiff is
ORDERED TO SHOW CAUSE, BY FILING A
DECLARATION WITHIN THIRTY (30) DAYS
FROM THE DATE OF THIS ORDER, WHY I
SHOULD NOT RECOMMEND TO THE DISTRICT
JUDGE DISMISSAL OF THIS ACTION FOR LACK
OF STANDING, AS FRIVOLOUS AND AS BARRED
BY THE DOCTRINE OF RES JUDICATA.
STANDARDS OF REVIEW
-44-

The Court has the authority to dismiss a
complaint sua sponte, even when the plaintiff has
paid the filing fee, if it determines that the action is
frivolous. Fitzgerald v. First E. Seventh Tenants
Corp., 221 F.3d 362, 363-64 (2d Cir. 2000) (per
curiam) (internal citation omitted). A claim is
“frivolous when either: (l) the factual contentions are
clearly baseless, such as when allegations are the
product of delusion or fantasy; or (2) the claim is
based on an indisputably meritless legal theory.”
Livingston v. Adirondack Beverage Co., 141 F.3d 434,
437 (2d Cir. 1998) (internal quotations marks and
citation omitted).
Moreover, a court may raise sua sponte the
issue of standing at any point in a litigation.
Keepers, Inc. v. City ofMilford, 807 F.3d 24, 38 (2d
Cir. 2015) (citing Cent. States Se. & Sw. Areas
Health & Welfare Fund v. MerckMedco Managed
Care, L.L.C., 433 F.3d 181, 198 (2d Cir. 2005)). To
have standing to maintain a lawsuit, a plaintiff
“must have (l) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). “[Alt the pleading
stage, the plaintiff must ‘clearly . . . allege facts
demonstrating’ each element.” Id. (citing Warth v.
Seldin, 422 U.S. 490, 518 (1975)).
A court also may raise sua sponte the issue of
res judicata. Scherer v. Equitable Life Assourance
Soc’y of U.S., 347 F.3d 394, 398 & n.4 (2d Cir. 2003).
-45-

J

Under the doctrine of res judicata, “a final judgment
on the merits of an action precludes the parties or
their privies from relitigating issues that were or
could have been raised in that action.” Proctor v.
LeClaire, 715 F.3d 402, 411 (2d Cir. 2013) (internal
quotation marks omitted). “A party cannot avoid the
preclusive effect of res judicata ‘by asserting a new
theory or a different remedy.’” Brown Media Corp. v.
K&L Gates, LLP, 854 F.3d 150, 157 (2d Cir. 2017)
(quoting SureHSnap Corp. v. State St. Bank and Tr.
Col., 948 F.2d 869, 875 (2d Cir. 1991)).
The Court is obliged to construe pro se
pleadings liberally, Harris v. Mills, 572 F.3d 66, 72
(2d Cir. 2009), and interpret them to raise the
“strongest [claims] that they suggest.” Triestman v.
Fed. Bureau ofPrisons, 470 F.3d 471, 474 (2d Cir.
2006) (internal quotation marks and citations
omitted).
2
BACKGROUND
Plaintiff brought a prior lawsuit against the
Commissioner of the Department of Motor Vehicles
(DMV), Kallas v. Fiala, No. 13-CV-8816 (GBD)
(S.D.N.Y.). In that action, he alleged that on
February 6, 2011, police officers issued him two
traffic summonses in Manhattan, 1 which “gave rise
to several legitimate fundamental national security
issues.” (See Compl., ECF No. 1, Kallas v. Fiala, No.
13-CV-8816 (S.D.N.Y.) at 5-6.) He was found guilty of
the violations. (Id. at 6.) Plaintiff appealed to the
-46-

DMV Appeals Board, and was denied. (Id. at 6.) He
also brought an Article 78 proceeding in New York
State Supreme Court, 2 in which he argued that the
state courts unconstitutionally denied him discovery
regarding national security issues that were
implicated because the traffic stop occurred near
“potential terrorist targets.” (Id. at 12.) That
proceeding was denied. (Id. at 6-7.) His appeal of the
denial to the Appellate Division was denied, and the
New York State Court of Appeals denied leave to
appeal. (Id)
In the prior federal lawsuit, Plaintiff sought
the dismissal of the judgment and order of the Court
of Appeals, and to proceed with the “resolution of the
relevant legitimate fundamental national security
issues in the litigation.” (Id. at 8.) District Judge
Daniels dismissed the case sua sponte as frivolous
(Order of Dismissal, ECF Nos. 3, 5, Kallas v. Fiala,
Case No. 13-CV-8816 (S.D.N.Y.)), and the Court of
Appeals for the Second Circuit affirmed the
dismissal. See Kallas v. Fiala, No. 14-310 (2d Cir.
Jan. 30, 2015).
As detailed in the State’s Memorandum of Law
from Plaintiff s Article 78 proceeding in New York
state court, which is annexed to Plaintiffs
complaint, one summons was for disobeying a
traffic signal, and one was for driving without a
seatbelt. (See Compl., ECF No. 1, Kallas v. Fiala,
-47-

Case No. 13-CV-8816 (S.D.N.Y.) at 10.)
2

See Kallas v. Fiala, Index No. 102481/2012 (N.Y.
Sup. Ct.).

3
DISCUSSION
Plaintiffs present complaint is difficult to
comprehend. In this action, he brings suit against the
current Executive Deputy Commissioner of the New
York State DMV. He states that he “brings the new
argument that the [traffic] statutes are also
Unconstitutional under Equal Protection and Due
Process because they do not integrate [a] progressive
(sliding scale) fine schedule, thereby having the effect
of disproportionally burdening minorities.” (Compl.,
ECF No. 1 at 2.) He makes various proposals about
allowing traffic school education options to resolve
summonses. {Id. at 6.) He does not refer to his prior
lawsuit, except for a general statement written in the
civil cover sheet filed simultaneously with his
complaint, in which he states that this case raises
“some same or similar issues” in the previous case
filed before Judge Daniels. {See ECF No. 2 at 1). He
makes no reference to any specific facts underlying
his prior lawsuit {e.g., the prior traffic summonses).
Indeed, many of Plaintiffs arguments appear to be
proposals for legislative action and do not raise
justiciable legal claims.
It is not clear that Plaintiff has standing to
assert the claims he brings. The complaint as
-48-

currently pleaded does not contain any facts
whatsoever, including those which would support a
finding that Plaintiff suffered any injury. And, due to
the legislative nature of the remedies plaintiff
proposes, it is not clear what (if any) conduct of
Defendant Plaintiff challenges, nor that a favorable
judicial decision would provide any redress to him.
Further, his claim that imposing fines without
regard to income disproportionately affects
minorities appears to be based on an indisputably
meritless legal theory. See, e.g, Washington v. Davis,
426 U.S. 229 (1976) (rejecting argument that facially
neutral state action violates Equal Protection solely
because it has a racially disproportionate impact).
4
Further, Judge Daniels’s sua sponte dismissal
of Plaintiff s prior lawsuit qualifies as a final
judgment on the merits for the purposes of res
judicata. See Soling v. New York State, 804 F. Supp.
532, 534 (S.D.N.Y. 1992). “[T]he res judicata effect of
such a sua sponte dismissal should apply as strictly
to pro se as to other plaintiffs [.]” Id. Plaintiff himself
states that the present cases raises the “same or
similar issues” to the previously-dismissed lawsuit.
He may not avoid the preclusive impact of res
judicata by the assertion of a new theory (his socalled “new argument”) or remedies {i.e., the
proposals regarding revisions to traffic statutes).
Therefore, Kallas must show cause why I
should not recommend that District Judge Caproni
-49-

dismiss this case for lack of standing, as frivolous
and/or as barred by the principles of res judicata.
CONCLUSION
A declaration form is attached to this Order.
Accordingly, Plaintiff shall show cause in writing, by
filing within thirty days of the date of this Order, a
declaration containing facts suggesting why his claim
is not frivolous and/or barred by the doctrine of res
judicata, and why he has standing to bring the
lawsuit. If Plaintiff fails to do so, I will recommend
that District Judge Caproni dismiss this matter. All
future proceedings are stayed for 30 days for Plaintiff
to comply with this Order.
The Clerk of Court is directed to mail a copy
of this Order to the pro se Plaintiff, Danos Kallas, at
the address provided for him on the docket, and to
note service on the docket.
SO ORDERED.
5
DATED:

New York, New York
January 17, 2019

STEWART D. AARON
United States Magistrate Judge
-50-

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 12th day of
March, two thousand twenty-one.

Danos Kallas,
Plaintiff - Appellant,
ORDER
Docket No- 20-717

V.

Theresa L. Egan, as the Executive
Deputy Commissioner of the
Department of Motor Vehicles of
the State of New York,
Defendant - Appellee.

-52-

Appellant, Danos Kallas, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition
is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

-53-

CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, RULES AND REGULATIONS
INVOLVED
Constitutional Provisions
United States Constitution. Amendment I
“Congress shall make no law........abridging........ the
right of the people... to petition the Government for a
redress of grievances.”
United States Constitution. Amendment II
"A well regulated militia, being necessary to the
security of a free State, the right of the people to
keep and bear arms, shall not be infringed."
United States Constitution. Amendment IV
"The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched,
and the person or things to be seized."
United States Constitution. Amendment V
"No person shall.......be deprived of life liberty, or
property without due process of law...."
United States Constitution. Amendment X
"The powers not delegated to the United States by
the Constitution, nor prohibited by it to the States,
are reserved to the States respectively, or to the
people."
-54-

United States Constitution, Amendment XI
"The Judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another state, or by Citizens or
Subjects of any Foreign State."
United States Constitution. Amendment XIV
"No State shall.......deprive any person of life,
liberty, or property, without due process of law! nor
deny to any person within its jurisdiction the equal
protection of the laws."
United States Constitution. Article III, Section II
“The judicial power shall extend to all cases, in law
and equity, arising under this Constitution...”
United States Constitution. Article VI. Clause II
"This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof...
...shall be the Supreme Law of the Land..."
Statutes
28 United States Code Section 1254(1)
“Cases in the court of appeals may be reviewed by
the Supreme Court by the following methods^ (l) By
writ of certiorari granted upon the petition of any
party to any civil........case........ after rendition of
judgment or decree...”
28 United States Code Sectionl331
“The district courts shall have original jurisdiction
of all civil actions arising under the Constitution,
laws, or treaties of the United States.”
-55-

42 United States Code Section 1983
“Every person who, under color of any statute,
ordinance, regulation custom or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or any other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a
judicial officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.”
New York State Vehicle and Traffic Law. Section
1110(a)
“ Every person shall obey the instructions of any
official traffic-control device applicable to him placed
in accordance with the provisions of this chapter,
unless otherwise directed by a traffic or police officer,
subject to the exceptions granted the driver of an
authorized emergency vehicle in this title.”
New York State Vehicle and Traffic Law. Section
1229-c(3)(a)
“ No person holding a class DJ learner’s permit or
class DJ license issued pursuant to section five
hundred two of this chapter, shall operate a motor
-56-

vehicle unless such person is restrained by a seat
belt approved by the commissioner....”
* The provisions above do not constitute an allinclusive list.

Danos Kallas
Petitioner, pro se
200 Winston Drive #415
Cliffside Park, N.J. 07010
(201) 725-5149

-57-

